TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Expanded Information Reporting Should
                    Increase the Proper Reporting of Farm
                Income, but Additional Steps Could Be Taken



                                           May 28, 2009

                              Reference Number: 2009-30-068




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 28, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Expanded Information Reporting Should Increase
                              the Proper Reporting of Farm Income, but Additional Steps Could Be
                              Taken (Audit # 200730IE040)

 This report presents the results of our review to determine the extent to which farmers are
 properly reporting Commodity Credit Corporation (CCC)1 income payments2 and whether
 additional steps may be needed to further enhance compliance with the reporting requirements.
 The review was part of our risk-based audit coverage under the major management challenge of
 Tax Compliance Initiatives and includes only individuals who report their farming operations on
 U.S. Individual Income Tax Return (Form 1040) Profit or Loss From Farming (Schedule F).
 These individuals typically own unincorporated businesses by themselves and are generally
 referred to as sole proprietors.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) annually receives thousands of information returns reporting
 CCC income payments that it is unable to use in determining whether the farmers filed tax
 returns or reported the income reflected on the statements. Because the information returns are
 unable to be used, opportunities exist for farmers to avoid the scrutiny of the IRS through
 underreporting income and not filing tax returns. Those farmers who take advantage of such


 1
   The CCC is an agency of the United States Department of Agriculture that was created to stabilize, support, and
 protect farm income and prices. The CCC also helps maintain balanced and adequate supplies of agricultural
 commodities and aids in their orderly distribution.
 2
   CCC income payments include price support payments; conservation program payments; production, emergencies,
 and compliance payments; and other payments. All are considered taxable income for CCC reporting purposes.
                    Expanded Information Reporting Should Increase the Proper
                   Reporting of Farm Income, but Additional Steps Could Be Taken



opportunities can create unfair burdens on honest taxpayers and diminish the public’s respect for
the tax system.

Synopsis
The IRS has taken actions to help alleviate concerns raised by the Government Accountability
Office in 1986 and by Senator Charles Grassley in 2003 about the adequacy of the guidance
available to assist farmers in properly reporting CCC income payments. One of the most
important actions involved expanding the use of information returns. In Tax Year 2008,
information returns reporting the taxable income from repaying amounts borrowed with
commodity certificates were sent to farmers for the first time. While expanded information
reporting should increase the amount of CCC income payments that are properly reported, the
IRS could take 2 additional steps that would enhance the effectiveness of the actions already
taken and may provide the additional benefit of increasing revenues by an estimated $94 million
over 5 years.3
The first step involves reducing the number of information returns that the IRS receives from the
United States Department of Agriculture (USDA) with inaccurate names and identification
numbers. For Tax Years 2003 through 2005, the IRS received 904 information returns reporting
$60,000 or more in CCC income payments that it was unable to use in determining whether the
farmers filed tax returns and reported the income due to mismatched names and identification
numbers. Because the information returns were not used, we estimate some farmers may have
avoided paying approximately $318,000 in taxes, interest, and penalties related to unreported
CCC income payments.
Second, the IRS should explore strategies to address potentially millions of dollars of improperly
reported CCC income payments and suspected cases of underreporting that are not pursued due
to resource constraints. While incorporating the recommendations made in this report, the IRS
staff could pursue details that we did not because of time and other constraints. For example, we
do not know whether improperly reported CCC income payments always affected tax liabilities
because some of the income payments may have been mistakenly reported on a different line of
the income tax return and were actually taxed. Other details that could be pursued involve
evaluating whether the new information returns are having the intended impact on compliance
and whether additional taxpayer guidance or enforcement may be needed to better ensure CCC
income payments are properly reported.




3
 The additional tax benefit was computed using the average tax, penalty, and interest for the 3 tax years (2003 to
2005) in our sample.
                                                                                                                     2
                 Expanded Information Reporting Should Increase the Proper
                Reporting of Farm Income, but Additional Steps Could Be Taken




Recommendations
The Director, Examination, Small Business/Self-Employed Division, should coordinate with
USDA officials to minimize the number of information returns submitted with mismatched
names and identification numbers and initiate actions to develop compliance strategies for
ensuring more CCC income payments are properly reported.

Response
IRS management agreed with our recommendations. The coordination with USDA officials falls
within the jurisdiction of the Government Entities function, Tax Exempt and Government
Entities Division, which has an existing Federal agency compliance program. The Government
Entities function will advise the USDA of the law that applies to it as an information return filer
and will coordinate with the USDA to improve compliance with information return requirements
to minimize the number of returns submitted with mismatched names and identification
numbers. The Director, Examination Policy, will take action to determine if there are additional
strategies that can be identified and utilized to enhance the compliance of CCC income
payments. However, IRS management stated that they believed the outcome measures in the
report may be overstated because our analysis did not consider the factors discussed in the
following Office of Audit Comment section. Management’s complete response to the draft
report is included as Appendix V.

Office of Audit Comment
We maintain that the outcome measures in the report are reasonable. Because our outcome
measures are based on samples of farmers with $60,000 or more in earnings, the amounts would
likely be much higher if we had reviewed and projected to the entire population of farmers
receiving CCC income payments in Tax Years 2003 through 2005. Our responses to each point
mentioned in the IRS response are shown following each IRS comment.
     •   IRS management asserted that because our review used transcribed data, rather than
         data from the filed returns, the information from line 7a of Schedule F was not
         considered because it is not transcribed, which could have decreased the outcome
         measure. However, having the filed return would not have reduced our outcome
         measure because, according to the instructions for Schedule F, the taxpayer should
         include the forfeited amount of the CCC loan on line 7b of the schedule even if they
         claimed the loan as income. Line 7b is transcribed and had no entries for our exception
         cases.
     •   IRS management stated that because our review was limited to 1 year of data per
         taxpayer, we may not have considered whether the taxpayer reported the forfeited loan
         as income in a different year. However, because taxpayers are required to report the

                                                                                                   3
                Expanded Information Reporting Should Increase the Proper
               Reporting of Farm Income, but Additional Steps Could Be Taken



        taxable amount of CCC loan forfeitures on line 7c, there would be no taxable income on
        line 7c if the farmer claimed the loan as income in a prior period and we did not take
        exception to such cases.
    •   IRS management noted the information return form used to report taxable income
        from repaying CCC loans [Certain Government Payments (Form 1099-G)] was revised
        in 2008 to include the reporting of market gains, which may result in improved
        compliance. However, our outcome measures did not include market gains because the
        USDA was not required to report market gain income for CCC loans repaid using
        commodity certificates during the time period we reviewed.
    •   IRS management suggested that the ongoing global financial crisis may have an impact
        on commodity prices, which would have an impact on the gains reported on CCC loans.
        Of course, we have no way to predict future market conditions. However, if future
        commodity prices are lower than current levels due to global financial problems,
        farmers could report more taxable income if repayments are made using commodity
        certificates and future commodity prices are lower than the original loan amounts.
    •   IRS management asserted that the taxpayers we found with mismatched Taxpayer
        Identification Numbers may have filed using a different number or been involved in
        another compliance action as part of the IRS’ nonfiler program. However, in our audit
        work, we searched IRS records to identify the correct taxpayer and matched them to the
        amount reported by the USDA. Our outcome measure reflects only those taxpayers we
        could identify, who had filed a return, and who had not reported the amount on the
        information return. If we had made a projection to the hundreds of taxpayers we could
        not identify, our results would likely have been much greater.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                             4
                      Expanded Information Reporting Should Increase the Proper
                     Reporting of Farm Income, but Additional Steps Could Be Taken




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Have Been Taken to Help Alleviate Concerns About the
          Adequacy of Tax Guidance Available to Farmers........................................Page 3
          Many Information Returns Do Not Contain the Correct Name
          or Identification Number...............................................................................Page 5
                    Recommendation 1:..........................................................Page 6

          Compliance Strategies Could Be Explored to Address the
          Challenges Posed by Loan Forfeitures and Resource Constraints................Page 7
                    Recommendation 2:..........................................................Page 8

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 18
        Expanded Information Reporting Should Increase the Proper
       Reporting of Farm Income, but Additional Steps Could Be Taken




                       Abbreviations

AUR              Automated Underreporter
CCC              Commodity Credit Corporation
IRS              Internal Revenue Service
TY               Tax Year
USDA             United States Department of Agriculture
                   Expanded Information Reporting Should Increase the Proper
                  Reporting of Farm Income, but Additional Steps Could Be Taken




                                            Background

A common source of financing for and payments to farmers are proceeds from the Commodity
Credit Corporation (CCC)1 loan program. Even though bona fide loan proceeds are generally not
considered taxable income to borrowers, the billions of dollars borrowed under the CCC loan
program can be an exception. Moreover, depending on how loan proceeds are treated, there are
different tax consequences that can create challenges for both farmers and the Internal Revenue
Service (IRS) in determining the proper amount of income that should be reported and taxed
from CCC loan transactions.
Under the CCC loan program, farmers can pledge some or all of their production to secure loans
and can make a special election to immediately recognize the loan proceeds as taxable income.
Once made, the election generally applies to all tax years and requires farmers to subsequently
report as income the excess sales price over amounts previously reported as income when the
commodities are sold. Farmers can also use commodity certificates2 or cash to repay the
amounts borrowed. In these instances, the repayment amount can be based on a commodity’s
prevailing world market price that is lower than the original loan amount, in which case the
farmer is required to report the difference as taxable income.
In addition to CCC loan proceeds, farmers received billions of dollars of CCC income payments3
in Tax Years (TY) 2003 through 2005. To detect and address those who may be underreporting
their CCC income payments, the IRS primarily relies on its Examination and Automated
Underreporter (AUR) programs.4 In contrast to the more labor-intensive face-to-face
Examination program, the AUR program is generally less intrusive, more automated, and more
focused on the underreporting of income. The AUR program also enables the IRS to reach more
taxpayers at a lower cost. As shown in Figure 1, the IRS contacted thousands of farmers in
TYs 2003 through 2005 and, by far, the majority of the contacts were through the AUR program.


1
  The CCC is an agency of the United States Department of Agriculture (USDA) that was created to stabilize,
support, and protect farm income and prices. The CCC also helps maintain balanced and adequate supplies of
agricultural commodities and aids in their orderly distribution.
2
  Commodity certificates are negotiable financial instruments that farmers can purchase from and exchange with the
USDA for outstanding loan collateral rather than forfeit the loan collateral at loan maturity. They were introduced
in October 1999 when the Congress amended the 1996 Farm Bill to include provisions for the issuance of
commodity certificates. Among other things, the certificates are designed to minimize loan forfeitures and allow
commodities to be marketed more freely and competitively.
3
  CCC income payments include price support payments; conservation program payments; production, emergencies,
and compliance payments; and other payments. All are considered taxable income for CCC reporting purposes.
4
  The Examination program usually requires an intensive review of a taxpayer’s books and records. The AUR
program is an automated analysis and processing of potential underreported and/or overreported issues identified
through information return matching.
                                                                                                           Page 1
                    Expanded Information Reporting Should Increase the Proper
                   Reporting of Farm Income, but Additional Steps Could Be Taken



       Figure 1: Sole Proprietor Farmers With CCC Income Payments5 Who Were
                    Contacted by the IRS in TYs 2003 Through 2005

            Sole Proprietor Farmers                            2003                  2004                 2005
                            6
    Number of tax returns filed                               1,995,392            1,980,906            1,975,737
    Number with CCC income payments                             830,178              682,598              729,721
    Number examined with CCC income payments                      4,372                2,442                3,488
    Number contacted by AUR with CCC income                      34,337               25,176               35,084
    payments
Source: Treasury Inspector General for Tax Administration analysis of IRS data.

This review was performed in the IRS Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period October 2007 through December 2008. Except for
auditing IRS databases to validate the accuracy and reliability of the information and evaluating
the adequacy of IRS internal controls over information returns,7 this audit was conducted in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




5
  We limited our review in Figure 1 to income payments reported by the USDA to the IRS using Certain
Government Payments (Form 1099-G).
6
  Returns filed for sole proprietor farmers were identified by determining the total number of returns filed containing
a U.S. Individual Income Tax Return (Form 1040) Profit or Loss From Farming (Schedule F).
7
  We did not validate the IRS’ Information Return database because only one information document filer was
included in the audit. The accuracy of the data was verified to individual recipients during our case review.
                                                                                                               Page 2
                     Expanded Information Reporting Should Increase the Proper
                    Reporting of Farm Income, but Additional Steps Could Be Taken




                                      Results of Review

The IRS has taken actions to help alleviate concerns about the adequacy of guidance available to
assist farmers and their tax advisors in properly reporting CCC income payments. One of the
most important actions involved expanding the use of information returns. While expanded
information reporting should increase the amount of CCC income payments that are properly
reported, two additional actions need to be taken. First, the number of information returns
reporting CCC income payments with inaccurate names and identification numbers needs to be
reduced. Second, compliance strategies need to be explored to address potentially millions of
dollars of improperly reported income from CCC loan forfeitures and suspected cases of
underreporting that are not pursued due to resource constraints.
While incorporating the recommendations made in this report, the IRS staff could pursue details
that we did not because of time and other constraints. For example, we do not know whether
improperly reported CCC income payments always affected tax liabilities because some of the
income payments may have been reported on a different line of the income tax return and were
actually taxed. Other details that could be pursued involve evaluating whether the new
information returns are having the intended impact on compliance and whether additional
education or enforcement may be needed to better ensure CCC income payments are properly
reported.
Actions Have Been Taken to Help Alleviate Concerns About the
Adequacy of Tax Guidance Available to Farmers
To its credit, the IRS has taken important steps to increase the proper reporting of CCC income
payments since concerns were raised by the Government Accountability Office in a 1986 report8
and subsequently by Senator Charles Grassley in 2003. Perhaps the most important recent step
involved the decision to expand the use of information returns by reporting taxable income from
repaying CCC loans with commodity certificates on Certain Government Payments
(Form 1099-G). From a customer service perspective, this was important because it reinforces
the written guidance the IRS published in March 2004 instructing farmers about how to report
gains when using commodity certificates to repay CCC loans. It also helps clarify the confusion
noted in the following excerpt from a letter sent by Senator Grassley to the IRS National
Taxpayer Advocate in May 2003:
          In addition, I also think there is uncertainty as to the filing and reporting requirements
          surrounding Form 1099-G. We should be helping and not hindering the American


8
    Information Returns Should Increase Proper Reporting of Farm Income (GAO/GGD-86-69, dated July 1986).
                                                                                                      Page 3
                        Expanded Information Reporting Should Increase the Proper
                       Reporting of Farm Income, but Additional Steps Could Be Taken



            taxpayers and their advisors who are struggling to give sound advice and simply file the
            correct returns. Please direct your staff to start the review and update of
            Rev. Rul. 87-103 along with the appropriate reporting requirements by the correct
            [G]overnment agencies, to give full updated compliance directions for all of the
            [F]ederal farm subsidy payments, including U.S. Department of Agriculture’s current
            commodity certificate program.
From a compliance perspective, the decision to expand the use of Form 1099-G was important
because it will better ensure that the millions of dollars in gains farmers realize each year using
commodity certificates to repay CCC loans are properly reported. According to records obtained
from the United States Department of Agriculture (USDA), 19,465 farmers realized
$221.1 million of market gains from using commodity certificates to repay CCC loans in
TYs 2003 through 2005. As summarized in Figure 2, we reviewed a statistically valid sample of
farmers who realized $60,000 or more of market gains in 1 or more of these tax years and found
that $21.1 million in market gains were not properly reported.
           Figure 2: Analysis of Farmers Who Realized $60,000 or More of Market
               Gains by Using Commodity Certificates to Repay CCC Loans
                                  in TYs 2003 though 2005
              Number of     Total CCC Loans in the         Total Market Gains           Total Market Gains
    TY
               Farmers             Sample                  Properly Reported           Not Properly Reported

    2003         65                    24                         $293,567                     $1,404,998

    2004         125                   37                         $386,772                     $3,118,384

    2005         607                  199                        $1,081,060                   $16,614,920

Totals           797                  260                        $1,761,399                   $21,138,302

Source: Treasury Inspector General for Tax Administration analysis of market gain data received from the USDA.

From a broad tax administration perspective, the filing of information returns is central to the
success of the nation’s voluntary tax system because it allows the IRS to more economically and
efficiently detect and pursue noncompliant taxpayers who can create unfair burdens on honest
taxpayers and diminish the public’s respect for the tax system. Because of the benefits involved,
we and others support the enhancement and expansion of information reporting as a key strategy
to reduce the underreporting of taxes that in part gives rise to the estimated $345 billion tax gap.9




9
  The Tax Gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that
is paid voluntarily and on time.
                                                                                                            Page 4
                Expanded Information Reporting Should Increase the Proper
               Reporting of Farm Income, but Additional Steps Could Be Taken



Many Information Returns Do Not Contain the Correct Name or
Identification Number
The IRS annually receives thousands of information returns reporting CCC income payments
that it is unable to use in determining whether the farmers filed tax returns or reported the
income reflected on the statements. Without a correct name and identification number, the AUR
program’s computer routines cannot match the income on the information return with the income
reported on a tax return. Because the information returns are unable to be used, opportunities
exist for farmers to avoid the scrutiny of the IRS through underreporting income and not filing
tax returns. Those farmers who take advantage of such opportunities can create unfair burdens
on honest taxpayers and diminish the public’s respect for the tax system. Consequently, the
success of the program in detecting underreporting situations involving Form 1099-G is largely
dependent upon the accuracy of the names and identification numbers reported on the documents
submitted by the USDA.
To assist Federal departments and agencies, as well as State governments and the private sector,
in submitting accurate names and identification numbers on information documents, the IRS
introduced an Internet-based identification number matching system in 2003. The system can be
accessed prior to submitting information documents and can instantly verify up to 25
identification number and name combinations in IRS records. Larger requests can be sent
electronically to the IRS and a response received within 1 business day.
Besides the Internet-based identification number matching system, Congress granted the IRS
authority under the tax law to require those who submit information documents to begin backup
withholding if an incorrect identification number is not timely resolved after the IRS provides
notification of the error. However, we did not find any evidence that either the USDA or the IRS
were taking advantage of these tools to minimize the number of information returns with
mismatched names and identification numbers.
For TYs 2003 through 2005, the IRS received 18,813 Forms 1099-G with mismatched names or
identification numbers reporting income payments of $190.8 million from the USDA. Of these,
there were 904 information returns for 429 farmers reporting $60,000 or more in CCC income
payments that the IRS was unable to use to determine whether the farmers properly reported the
income, due to mismatched names and identification numbers. To estimate the number of
farmers who may have improperly reported their CCC income payments by using incorrect
names or identification numbers, we used IRS automated data systems to manually research a
statistically valid sample of 203 information returns reporting CCC income payments with
mismatched names and identification numbers reporting $60,000 or more in earnings.




                                                                                         Page 5
                    Expanded Information Reporting Should Increase the Proper
                   Reporting of Farm Income, but Additional Steps Could Be Taken



We successfully validated 150 (74 percent) of the 203 statements and matched them to accounts
in the IRS’ Master File.10 Our sample results indicate that 22 farmers had not properly reported
$2.5 million in income from 31 information documents, although the statements reported they
received, on average, about $115,843 in CCC farm payments. When projected to the population
of individual taxpayers, our sample results indicate that as of December 1, 2008, 317 farmers
may have avoided paying approximately $318,000 in taxes, interest, and penalties related to
unreported CCC income payments.11
Recommendation
Recommendation 1: The Director, Examination, Small Business/Self-Employed Division,
should coordinate with USDA officials to minimize the number of information returns submitted
with mismatched names and identification numbers.
        Management’s Response: IRS management agreed with our recommendation.
        Management stated that this recommendation falls within the jurisdiction of the
        Government Entities function, Tax Exempt and Government Entities Division, which has
        an existing Federal agency compliance program. The Government Entities function will
        advise the USDA of the law that applies to it as an information return filer and will
        coordinate with the USDA to improve compliance with information return requirements
        to minimize the number of returns submitted with mismatched names and identification
        numbers. However, IRS management stated that they believe our outcome measure may
        be overstated because our analysis did not consider the factor discussed in the following
        Office of Audit Comment section.
        Office of Audit Comment: We maintain that the outcome measure is reasonable. IRS
        management asserted that the taxpayers we found with mismatched Taxpayer
        Identification Numbers may have filed using a different number or been involved in
        another compliance action as part of the IRS’ nonfiler program. However, in our audit
        work, we searched IRS records to identify the correct taxpayer and matched them to the
        amount reported by the USDA. Our outcome measure reflects only those taxpayers we
        could identify, who had filed a return, and who had not reported the amount on the
        information return. If we had made a projection to the hundreds of taxpayers we could
        not identify, our results would likely have been much greater.




10
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
11
   See Appendix IV for details.
                                                                                                            Page 6
                 Expanded Information Reporting Should Increase the Proper
                Reporting of Farm Income, but Additional Steps Could Be Taken



Compliance Strategies Could Be Explored to Address the Challenges
Posed by Loan Forfeitures and Resource Constraints
The IRS has a long history of using special projects to identify, evaluate, and address potential
areas of noncompliance within various taxpayer segments. With years of experience to draw
upon, the IRS staff involved in such special projects is better positioned than us to suggest cost
effective approaches to address potentially millions of dollars of improperly reported CCC
income payments and the underreporting cases that are not pursued due to resource constraints.
Moreover, without further IRS investigation, we do not know whether CCC income payments
that are not properly reported always affect tax liabilities. For example, some of the income
payments may have been mistakenly reported on a different line of the income tax return and
were actually taxed. Consequently, this is an area where the IRS staff is better positioned than us
to make such determinations. Other details that could be pursued involve evaluating whether the
new information returns are having the intended impact on compliance and whether additional
taxpayer guidance or enforcement may be needed to better ensure CCC income payments are
properly reported.
CCC income reported from loan forfeitures is not checked because of computer
matching problems
As discussed earlier, farmers can pledge crops as collateral for a CCC loan in 1 tax year but sell
or forfeit the crops in a subsequent tax year. In these instances, the tax code allows farmers to
report CCC loan proceeds as income in the year the loan proceeds are received rather than in the
year the crops are sold or forfeited. To make this election, the IRS requires farmers to attach a
statement to the tax return filed for the year that the loan was received. The IRS also requires
farmers to separately report the amount of nontaxable and taxable CCC loans forfeited on U.S.
Individual Income Tax Return (Form 1040) Profit or Loss From Farming (Schedule F).
The IRS received Acquisition or Abandonment of Secured Property (Form 1099-A) for
5,401 farmers for TYs 2003 through 2005 showing that the farmers settled their CCC loan debt
by forfeiting crops (i.e., loan collateral) to the USDA valued at $114.5 million. Although each of
the forfeitures was a potential taxable event that must be reported on the farmer’s tax return, the
documents are not used in the AUR program because they are not designed to provide the
information needed to determine the year in which the CCC loan proceeds were taxable. In
addition, the tax rules allowing farmers to report CCC loan income in either of 2 years present
computer matching problems because IRS computer matching routines are designed to match
1 year at a time.
Our analysis indicates that the inability to computer match such information returns may be
leaving a large gap between the number of forfeited CCC loans that are taxed and the number
that should be taxed. We evaluated a statistically valid sample of 205 out of 435 CCC loan



                                                                                            Page 7
                   Expanded Information Reporting Should Increase the Proper
                  Reporting of Farm Income, but Additional Steps Could Be Taken



forfeitures12 from TYs 2003 through 2005 that involved $60,000 or more and found that
144 (70 percent) loan forfeitures that were not properly reported. When projected to the
population, our sample results indicate 306 farmers had not properly reported the forfeitures,
including 20 who had not filed 1 or more tax returns. Altogether, we estimate that as of
December 1, 2008, the 306 farmers may owe as much as $4.3 million in taxes, penalties, and
interest related to loan forfeitures.13
Some underreporter cases are not pursued due to resource constraints
According to IRS officials, resource constraints hamper their ability to followup on all identified
potential underreporter cases. The AUR program receives millions of documents to review each
year but can only work a portion of the documents because of staff availability. As a result, IRS
officials use screening techniques to analyze the inventory of potential underreporter cases and
attempt to select those cases they believe have the highest tax potential.
We did not evaluate the effectiveness of the internal controls the IRS uses to ensure that only
cases having the highest tax potential are selected for followup. However, we did evaluate a
statistical sample of 385 out of 87,442 information returns reporting $60,000 or more of CCC
income payments and found 21 farmers who did not report CCC income payments of
$1.4 million and were not pursued for investigation. When projected to the population of
information returns used to select our sample, our results indicate that 4,770 farmers were not
pursued even though they may have collectively understated the taxes, interest, and penalties
they owe by $14.2 million.14
Recommendation
Recommendation 2: As resources become available, the Director, Examination, Small
Business/Self-Employed Division, should initiate actions to develop compliance strategies for
ensuring more CCC income payments are properly reported.
        Management’s Response: IRS management agreed with our recommendation. The
        Director, Examination Policy, will take action to determine if there are additional
        strategies that can be identified and utilized to enhance compliance. However, IRS
        management stated that they believed the outcome measures in the report may be
        overstated because our analysis did not consider the factors discussed in the following
        Office of Audit Comment section.
        Office of Audit Comment: We maintain that the outcome measures are reasonable.
        Because our outcome measures are based on samples of farmers with $60,000 or more in

12
   Information documents were extracted from the Information Return Master File for Forms 1099-A issued by the
USDA.
13
   See Appendix IV for details.
14
   See Appendix IV for details.
                                                                                                        Page 8
         Expanded Information Reporting Should Increase the Proper
        Reporting of Farm Income, but Additional Steps Could Be Taken



earnings, the amounts would likely be much higher if we had reviewed and projected to
the entire population of farmers receiving CCC income payments in TYs 2003
through 2005. Our responses to each point mentioned in the IRS response that pertains to
the outcome measures reported in this section are shown following each IRS comment.
   •   IRS management asserted that because our review used transcribed data, rather
       than data from the filed returns, the information from line 7a of Schedule F was
       not considered because it is not transcribed, which could have decreased the
       outcome measure. However, having the filed return would not have reduced our
       outcome measure because, according to the instructions for Schedule F, the
       taxpayer should include the forfeited amount of the CCC loan on line 7b of the
       schedule even if they claimed the loan as income. Line 7b is transcribed and had
       no entries for our exception cases.
   •   IRS management stated that because our review was limited to 1 year of data per
       taxpayer, we may not have considered whether the taxpayer reported the forfeited
       loan as income in a different year. However, because taxpayers are required to
       report the taxable amount of CCC loan forfeitures on line 7c, there would be no
       taxable income on line 7c if the farmer claimed the loan as income in a prior
       period and we did not take exception to such cases.
   •   IRS management noted the information return form used to report taxable income
       from repaying CCC loans (Form 1099-G) was revised in 2008 to include the
       reporting of market gains, which may result in improved compliance. However,
       our outcome measures did not include market gains because the USDA was not
       required to report market gain income for CCC loans repaid using commodity
       certificates during the time period we reviewed.
   •   IRS management suggested that the ongoing global financial crisis may have an
       impact on commodity prices, which would have an impact on the gains reported
       on CCC loans. Of course, we have no way to predict future market conditions.
       However, if future commodity prices are lower than current levels due to global
       financial problems, farmers could report more taxable income if repayments are
       made using commodity certificates and future commodity prices are lower than
       the original loan amounts.




                                                                                 Page 9
                    Expanded Information Reporting Should Increase the Proper
                   Reporting of Farm Income, but Additional Steps Could Be Taken



                                                                                                    Appendix I

         Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine the extent to which farmers are properly
reporting CCC income payments and whether additional steps may be needed to further enhance
compliance with the reporting requirements. During the review, we relied on databases provided
to us by the IRS. We did not conduct audit tests to determine the accuracy and reliability of the
information in any of the databases. However, we did assess the reasonableness of the data as
described below and concluded the data were reliable and adequate to conduct our work. Also,
we did not evaluate the adequacy of IRS internal controls over information returns because that
was outside the scope of the review. To accomplish our objectives, we:
I.       Reviewed a significant amount of material to gain an understanding of the tax laws
         applicable to information returns and the need for enhancing compliance with CCC loan
         reporting requirements. These sources included the Internal Revenue Code;1 the United
         States Treasury Regulations; Government Accountability Office Reports; and the Internal
         Revenue Manual, job aids, memoranda, Audit Technique Guides, and training materials.
II.      Reviewed IRS guidelines and interviewed its personnel to learn how information returns
         reporting CCC income payments are processed, validated, and perfected.
III.     Analyzed extracts2 from the IRS records of information returns reporting CCC income
         payments for TYs 2003 through 2005 to identify filing trends and characteristics.
IV.      Tested the reasonableness of the information from our extracts of IRS records by
         comparing it to selected data on the information returns submitted by the USDA.
V.       Analyzed a statistically valid attribute sample of 203 of the 429 farmers with information
         returns reporting CCC income payments in the IRS’ records of mismatched names and
         identification numbers to determine if the mismatches could be resolved and used to
         identify underreporting and/or nonfiling situations. These information returns were
         submitted in TYs 2003 through 2005 and reported $60,000 or more in earnings.3 The
         sample was based on a 95 percent confidence level, an estimated error rate of 50 percent,
         and a precision rate of + 5 percent.


1
  26 U.S.C. Section 3406 (2006).
2
  Data extracts were received from the Information Return Master File, which contains third-party information
reported to the IRS by banks, businesses and other institutions. The IRS uses this third-party information to verify
the taxpayers reported this information on their income tax return.
3
  We selected statements reporting $60,000 or more in earnings because it would enable us to focus our efforts on
those with the highest amounts of potentially underreported income.
                                                                                                            Page 10
                    Expanded Information Reporting Should Increase the Proper
                   Reporting of Farm Income, but Additional Steps Could Be Taken



VI.     Analyzed a statistically valid attribute sample of 385 of the 87,442 information returns
        reporting CCC income payments in the IRS’ records with accurate names and
        identification numbers to determine if the information returns could be used to identify
        underreporting and/or nonfiling situations. These information returns were submitted in
        TYs 2003 through 2005 and reported $60,000 or more in earnings.4 The sample was
        based on a 95 percent confidence level, an estimated error rate of 50 percent, and a
        precision rate of + 5 percent.
VII.    Analyzed a statistically valid attribute sample of 205 of the 435 Forms 1099-A submitted
        in TYs 2003 through 2005 and reporting $60,000 or more in earnings5 to determine the
        potential amount of underreported income. The sample was based on a 95 percent
        confidence level, an estimated error rate of 50 percent, and a precision rate of + 5 percent.
VIII.   Used variable sampling techniques based on the underreporting and nonfiling occurrence
        rates to estimate the dollar amount of earnings for the population of mismatched and
        accurate information returns reporting CCC loan income that may have been
        underreported because the taxpayers either did not properly report the income on the tax
        filed or did not file their tax returns.
IX.     Confirmed the accuracy and validity of our projections with statisticians from the IRS
        Statistics of Income Division.




4
  We selected statements reporting $60,000 or more in earnings because it would enable us to focus our efforts on
those with the highest amounts of unreported income.
5
  We selected statements reporting $60,000 or more in earnings because it would enable us to focus our efforts on
those with the highest amounts of unreported income.
                                                                                                          Page 11
                Expanded Information Reporting Should Increase the Proper
               Reporting of Farm Income, but Additional Steps Could Be Taken



                                                                             Appendix II


                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Stanley Pinkston, Lead Auditor
Donna Saranchak, Senior Auditor
William Tran, Senior Auditor
Debra Mason, Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 12
               Expanded Information Reporting Should Increase the Proper
              Reporting of Farm Income, but Additional Steps Could Be Taken



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 13
                   Expanded Information Reporting Should Increase the Proper
                  Reporting of Farm Income, but Additional Steps Could Be Taken



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
Increased Revenue – Potential; on average,1 $318,000 per year; $1.6 million over 5 years.2
This represents the additional revenue associated with taxes, interest, and penalties on
assessments by reducing the number of Certain Government Payments (Form 1099-G)3 with
mismatched names and identification numbers reporting $60,000 or more in earnings.4 The
value of the outcome measure does not include amounts (costs) that could partially offset this
benefit due to reallocating some resources from other IRS investigations (see page 5).
Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with researching, resolving, and
investigating Forms 1099-G with mismatched names and identification numbers, we:
    1. Analyzed a statistically valid sample of 203 Forms 1099-G with mismatched names and
       identification numbers reporting $60,000 or more in earnings, to determine the number of
       documents that could be manually perfected and identified without income tax returns.
       Our sample was selected from a population of 429 farmers meeting our criteria for whom
       information returns were submitted for TYs 2003 through 2005.
    2. Used the results of our sample to project that mismatched documents which are perfected
       may result in approximately $318,000 in taxes, penalties, and interest for Forms 1099-G
       associated with income tax returns filed and not reporting the income.
    3. Shared our methodology for projecting our attribute sample into the population of
       Forms 1099-G with the IRS Statistics of Income Division staff, who confirmed the
       accuracy and validity of the projections.

1
  The 1-year and 5-year projections were computed using the average tax, penalty, and interest per year from our
sample period (TYs 2003 to 2005).
2
  The outcome measure for the mismatched sample is computed using the individual results because the information
document amounts could not definitively be traced back to the business tax returns.
3
  Forms 1099-G were used for finding number 1 and finding number 3. These samples are mutually independent of
each other.
4
  We selected statements reporting $60,000 or more in earnings because it would enable us to focus our efforts on
those with the highest amounts of unreported income.
                                                                                                        Page 14
                   Expanded Information Reporting Should Increase the Proper
                  Reporting of Farm Income, but Additional Steps Could Be Taken



    4. Followed the IRS Substitute for Return program procedures5 for preparing proposed
       assessments in situations where we could not verify that a tax return was filed. Our
       calculations of taxes, interest, and penalties were based on these procedures, along with
       our assumptions that 1) there were no expenses associated with the Forms 1099-G, 2) the
       individual’s filing status was Single, and 3) there were no other sources of income for the
       taxpayer.
    5. Applied and calculated the applicable Federal income tax rates to the 22 Individual
       Master File taxpayers perfected with mismatched Forms 1099-G.
    6. Applied the penalty for failure to file and interest from the due dates of the returns to
       December 1, 2008, in situations where we could not verify that a tax return was filed.
    7. Used the IRS’ internal computer programs to apply the interest from the due dates of the
       returns to December 1, 2008, in situations where returns were filed but we could not
       verify that the income was reported.
Type and Value of Outcome Measure:
Increased Revenue – Potential; on average, $4.3 million per year; $21.3 million over 5 years.
This represents the additional revenue associated with taxes, interest, and penalties on
assessments from matching Acquisition or Abandonment of Secured Property (Form 1099-A)
containing $60,000 or more in earnings to the tax returns of farmers. The value of the outcome
measure does not include amounts (costs) that could partially offset this benefit due to
reallocating some resources from other IRS investigations (see page 7).
Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with matching Forms 1099-A to the tax
returns filed by farmers, we:
    1. Analyzed a statistically valid sample of 205 Forms 1099-A reporting $60,000 or more in
       earnings to determine the potential amount of underreported income. Our sample was
       selected from a population of 435 Forms 1099-A submitted for TYs 2003 through 2005.
    2. Used the results of our sample to project that the income from 306 Forms 1099-A could
       not be associated with income tax returns filed reporting the income.
    3. Shared our methodology for projecting our attribute sample into the population of
       Forms 1099-A with the IRS Statistics of Income Division staff, who confirmed the
       accuracy and validity of the projections.



5
 The IRS prepares a substitute for return when a taxpayer appears to have a filing requirement but does not comply
by voluntarily filing a tax return.
                                                                                                         Page 15
                 Expanded Information Reporting Should Increase the Proper
                Reporting of Farm Income, but Additional Steps Could Be Taken



   4. Followed the IRS Substitute for Return program procedures for preparing proposed
      assessments in situations where we could not verify that a tax return was filed. Our
      calculations of taxes, interest, and penalties were based on these procedures, along with
      our assumptions that 1) there were no expenses associated with the Forms 1099-A, 2) the
      individual’s filing status was Single, and 3) there were no other sources of income for the
      taxpayer.
   5. Applied and calculated the applicable Federal income tax rates to the 144 farmers where
      the total Form 1099-A amount could not be fully identified.
   6. Used the IRS’ internal computer programs to apply the penalty for failure to file and
      interest from the due dates of the returns to December 1, 2008, in situations where we
      could not verify that a tax return was filed.
   7. Used the IRS’ internal computer programs to apply the interest from the due dates of the
      returns to December 1, 2008, in situations where returns were filed but we could not
      verify that the income was reported.
Type and Value of Outcome Measure:
Increased Revenue – Potential; on average, $14.2 million per year; $70.9 million over 5 years.
This represents the additional revenue associated with taxes, interest, and penalties on
assessments from expanding the matching of Forms 1099-G containing $60,000 or more of
income to the tax returns filed by farmers. The value of the outcome measure does not include
amounts (costs) that could partially offset this benefit due to reallocating some resources from
other IRS investigations (see page 7).
Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with researching, resolving, and
investigating Forms 1099-G to determine if CCC income payments were properly reported, we:
   1. Analyzed a statistically valid sample of 385 Forms 1099-G with $60,000 or more of
      income to determine the potential amount of underreported income. Our sample was
      selected from a population of 87,442 individual farmers with Forms 1099-G submitted
      for TYs 2003 through 2005 meeting our income level threshold.
   2. Used the results of our sample to project that 4,770 taxpayers meeting our selection
      criteria for Forms 1099-G could not be associated with income tax returns filed that
      properly reported the income.
   3. Shared our methodology for projecting our attribute sample into the population of
      Forms 1099-G with the IRS Statistics of Income Division staff, who confirmed the
      accuracy and validity of the projections.



                                                                                          Page 16
             Expanded Information Reporting Should Increase the Proper
            Reporting of Farm Income, but Additional Steps Could Be Taken



4. Followed the IRS Substitute for Return program procedures for preparing proposed
   assessments in situations where we could not verify that a tax return was filed. Our
   calculations of taxes, interest, and penalties were based on these procedures, along with
   our assumptions that 1) there were no expenses associated with the Forms 1099-G, 2) the
   individual’s filing status was Single, and 3) there were no other sources of income for the
   taxpayer.
5. Applied and calculated the applicable Federal income tax rates to the 21 farmers where
   the total Form 1099-G amount could not be fully identified.
6. Applied the penalty for failure to file and interest from the due dates of the returns to
   December 1, 2008, in situations where we could not verify that a tax return was filed.
7. Used the IRS’ internal computer programs to apply the interest from the due dates of the
   returns to December 1, 2008, in situations where returns were filed but we could not
   verify that the income was reported.




                                                                                        Page 17
    Expanded Information Reporting Should Increase the Proper
   Reporting of Farm Income, but Additional Steps Could Be Taken



                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 18
 Expanded Information Reporting Should Increase the Proper
Reporting of Farm Income, but Additional Steps Could Be Taken




                                                        Page 19
 Expanded Information Reporting Should Increase the Proper
Reporting of Farm Income, but Additional Steps Could Be Taken




                                                        Page 20
